                                           AR 04-060




      FEDERAL TRADE COMMISSION

    Review of FTC’s Management of Funds
        Transferred in Fiscal Year 2003
For Technical Assistance to Developing Countries




     OFFICE OF INSPECTOR GENERAL
        Review of FTC’s Management of Funds Transferred from the
   United States Agency for International Development in Fiscal Year 2003
              for Technical Assistance to Developing Countries



Since 1992, the Federal Trade Commission has assisted transition economies that are committed
to market and commercial law reforms. With funding principally from the U.S. Agency for
International Development (USAID), the FTC has provided technical assistance to
approximately 30 nations to assist in the development of their competition laws. This technical
assistance can be in the form of consulting services, training seminars and conferences for
competition authorities from various countries. The resulting costs charged to the USAID
programs are personnel, travel, facility rental, materials and other services (such as translations
and interpreters) required to provide the technical service.

The FTC receives funding for this purpose from USAID in two forms; through an appropriation
transfer or through a reimbursable work agreement. The primary difference between the two
funding types lies in the oversight of how the funds are used. For an appropriation transfer, the
FTC has full responsibility to administer and account for the funds, similar to an appropriation
that was directly given to it by Congress. Conversely, when the FTC provides technical
assistance services under a reimbursable work agreement, USAID maintains primary
responsibility for administering and accounting for the funds.

USAID funds two primary programs with similar objectives through the appropriation transfer:
(1) The Support for Eastern European Democracy Act of 1989 (“SED” program) builds capacity
for the enforcement of competition laws in Albania, Bosnia-Herzegovina, Bulgaria, Croatia,
Kosovo, Macedonia, Romania, Serbia and Montenegro; (2) the Freedom Support Act of 1992
(FSA) targets developing countries of the former Soviet Union to include Armenia, Azerbaijan,
Georgia, Kazakhstan, Kyrgyzstan, Moldova, Russia, Tajikistan, Ukraine, and Uzbekistan.

The FTC also provides technical assistance on competition to other countries with funding from
the reimbursable work agreements with USAID. There are separate programs for Romania &
the Balkans, Macedonia, the Community of Andean Nations, South Africa and Indonesia.


                        OBJECTIVES, SCOPE & METHODOLOGY

On February 20, 2003, the president signed into law H. J. Res. 2, the Consolidated Appropriations
Resolution, 2003 (P.L. 108-7). Section 507(d) requires that any agreement entered into by USAID
with another agency that allocates or transfers funds to that agency under section 632(a) of the



                                                 1
Foreign Assistance Act, or any other comparable provision of law, must include periodic financial
and program audits of the transferred funds by that agency’s Office of Inspector General.

Pursuant to these requirements, the objectives of the audit were to determine whether, for fiscal year
ending 9/30/03, the payroll and other related program costs charged against USAID funds were (i)
supported by approved documentation, and that these allocations appeared proper and reasonable;
and (ii) used only for the purposes spelled out by USAID in its Memorandum of Agreement (MOA)
and reimbursable work agreements with the FTC.

Appropriation Transfer Programs - To assess compliance with the MOA for the appropriation
transfer programs, the OIG reviewed 15 expenditure charges to the appropriation transfer fund
during the period of 7/1/03 to 9/30/03. (See Table 1.) The 15 items reviewed totaled $ 169,830, or
53% of the total FY 2003 Fund 4 expenditures of $317,525. The selected transactions involved
multiple individual payments and included travel vouchers, bank cards, payment vouchers, direct
disbursements, accruals, payroll and adjustments. The OIG noted one exception totaling $328 which
is detailed in the “Accounting Exceptions” section on page 4.


Table 1. Appropriation Transfer Transactions

                      Transaction                               Approved             Proper
  No.      Date           No.               Expended ($$)     Documentation          Charge
 1      7/01/2003     03398026                  2,981            Yes                  Yes
 2      7/02/2003     03CITIMAR                 1,078            Yes                  Yes
 3      7/28/2003     BC030721001             10,860             Yes                  Yes
 4      8/08/2003     03398047B                 9,215            Yes                  Yes
 5      8/15/2003     03081570007               3,987            Yes                  Yes
 6      8/21/2003     0317J000001             13,685             Yes                  Yes
 7      8/22/2003     BC030821001             16,979             Yes                  No ($328)
 8      9/04/2003     0398044A                 3,450             Yes                  Yes
 9      9/10/2003     V033981007               3,000             Yes                  Yes
10      9/18/2003     V033981008             11,209              Yes                  Yes
11      9/23/2003     04811554A                7,001             Yes                  Yes
12      9/23/2003     04811556               28,021              Yes                  Yes
13      9/26/2003     03092600001            19,838              Yes                  Yes
14      9/30/2003     0320J000003            19,296              Yes                  Yes
15      9/30/2003     03398101               19,230              Yes                  Yes

                              TOTAL:       $169,830 of $317,525




                                                  2
 Reimbursable Work Agreement Programs - To assess compliance with the reimbursable work
 agreement, the OIG reviewed four transactions (comprised of multiple individual payments) that
 occurred during the period 7/1/03 to 9/30/03. The four transactions totaled $187,334 out of total
 FY 2003 expenditures of $563,348 and comprised 33 percent of all reimbursable program
 expenditures for the year. The OIG noted two exceptions totaling $861 (see Table 2.) which are
 discussed on page 4 below under the “Accounting Exceptions” section.

 Table 2. - Reimbursable Work Agreement

                                                                               Approved        Proper
No.     Division   Program                 Project Title        Expended     Documentation     Charge
 1       3953       Y26         Andean Community Competition    $75,636          Yes            Yes
                                Policy Reforms

 2      3944        Y44         Recovery of Economic              $9,967          Yes           No ($158)
                                & Financial systems

 3      3944        Y44         Recovery of Economic             $30,775          Yes           No ($703)
                                & Financial Systems

 4      3944        Y44         Recovery of Economic            $70,956           Yes           Yes
                                & Financial Systems

                                        TOTAL                  $187,334 of $563,348



                                           REVIEW RESULTS

 The OIG’s review of the appropriation transfer program found that, for items selected for review,
 procedures were in place to allocate costs between the two programs consistently and correctly, and
 that funds were spent in compliance with the agreements between USAID and the FTC for the
 period reviewed.1 The OIG did find three instances where costs were inaccurately coded into the
 accounting system, resulting in charges made to the incorrect USAID program, and one instance of
 a questionable allocation of airfare charges. Details of the OIG findings are noted below.



             1
                       Given the positive results of our limited sample, the OIG chose not to conduct an
     expanded-scope audit, the objective of which would be the expression of an opinion on all expenditures
     charged against the USAID appropriation transfer and the reimbursable services. Accordingly, the OIG
     does not express such an opinion. However, nothing came to our attention on the selected items reviewed
     to indicate that the process of expenditures charged against USAID funding is not working properly. Had
     the OIG performed additional procedures, other matters might have come to our attention that would have
     been reported.


                                                       3
                           ACCOUNTING EXCEPTIONS DETAILS

The FTC uses the Citibank Direct system and its government purchase cards to assist in
automatically posting credit card charges to the FTC’s financial accounting system. Individual
credit card charges are posted to the accounting system based upon previously established program
and object class defaults. Each individual credit card holder reviews his/her monthly statement and
approves the charges. If an individual charge requires posting to another program or object class
other than to the defaults established, then the credit card holder can make changes through the
credit card log. These changes are processed through the Citibank Direct system and posted to the
FTC’s accounting system.

In all cases reviewed the FTC’s program manager for the USAID funds made the proper allocation
on the credit card bills. However, the Citibank Direct system failed to process and post the charges
as directed. The OIG notes that in its FY 2003 financial statement audit, management experienced
similar glitches with the new Citibank Direct system.

In the results of the sample of 15 charges against appropriation transfer funds, the following
exception was noted:

1. Sample #7 - $328 undercharge to SED Program: An AT&T wireless charge for $328 related to
the SED program was not properly recorded in the FTC’s accounting system. This charge was one
expenditure transaction listed on the 7/22/03 -8/21/03 Citibank credit card statement. The
statement totaled $16,979 and included several travel-related transactions, including hotel bills,
rental car charges, Internet hook-up fees and other similar expenditures.

In this particular instance, the entire amount of $16,979 was initially charged against the SED
program as its default. Subsequently, charges for individual amounts related to programs other than
SED were appropriately reversed by the program manager on the credit card log. However, the
OIG identified a charge to AT&T Wireless for $414 that was supposed to be split between the SED
program for $328 and the Y44 (Indonesia) program for $86. Although the program manager made
the appropriate split on the credit card log the entire $414 was reversed out from the SED program
and charged to the Y44 program on the FTC’s accounting system. As a result, the $328 was
charged to the wrong program.


The OIG noted the following two exceptions in the transactions reviewed that were charge to the
reimbursable program:

2. Sample #2 $158 (net) undercharge to the Indonesia Program:

The selected transaction was for $9,966 which represented several small credit card charges and
one payroll adjustment for $6,867. The OIG identified credit card charges that should have been
charged to the Indonesia program (Y44), but were not. Conversely, the OIG identified one charge
made to the Indonesia program that belonged to a different USAID program. The net effect of the


                                                 4
four exceptions are detailed below:

                                         Charged to Y44,         Not charged to Y44,
                                       should not have been       should have been
        AOL services -Indonesia                                         $23
        FedEx-Stability Pact country          $5
        Medex Assistance                                               $115
        AOL service-Indonesia                                           $23
                                                                       $163
                                                                        $(5)
                                                                  Net $158


Similar to the situation reported in Sample #7 above, the credit card log indicated the proper
classification of the charges, but these charges were not reflected and recorded under those
classifications in the accounting system via Citibank Direct.

3. Sample #3-$703 undercharge to the Indonesia Program:

The OIG identified two shipping-related misclassifications from a sample of expenditures totaling
$30,775 in project charges. The total represented mostly payroll adjustments ($19,702), large
travel vouchers and some credit card charges. The two program undercharges are noted below:

                                                   Not charged to Y44,
                                                   but should have been
        FedEx -Shipment to Indonesia                      $642
        DHL -Shipment to Indonesia                         $61
                                                          $703


Similarly, the credit card log had these undercharges properly classified, but they were not posted
to the accounting system under those classifications.


In addition to the accounting exception identified in #1 above, the OIG also noted the following
airfare allocation issue in the SED program:

4. Sample #8 - Airfare Allocation to SED Program:

Travel costs charged to SED for a trip to Bucharest totaled $3,450. Part of the trip itinerary
included a stop in Brussels, Belgium. While the per diem costs for the Brussels portion of the trip
were properly allocated between the two programs, the entire airfare of $1,520 was charged to
SED.



                                                   5
There is no agency policy that addresses how to allocate airfare between two programs when a side
trip does not change the airfare total. Therefore the program official did not make any airfare cost
allocation for the Brussels leg of the trip.

The OIG believes that the International Program should have a formal policy to address such
instances, otherwise identical situations could be handled differently, depending on the
circumstances of the trip and/or the funding available. Possible cost allocation alternatives include
(i) days spent at each location (i.e., if 2 days out of 10 were spent in Brussels, for example, then 20
percent of the airfare could be allocated); (ii) splitting the costs equally; or (iii) assigning the full
cost to the primary trip, as was done in this example. Again, whatever convention is used should be
documented in a policy then applied consistently.



       Recommendation: The OIG recommends that the International Technical Assistance
       Program staff establish, in consultation with AID program staff, a policy to allocate
       airfare costs whenever two or more program/funding sources are charged in a single
       trip.




                                                   6
